                                 Closeout for M98120042

0n#?tober        1998, a program manager1informed us that he had received an
electromc mail message from a                   The complainant alleged that the
department chairman3was abusing authority created by his submission of an NSF
proposal4that requested graduate student training funds. Allegedly he was forcing
the department to change the way its faculty members were teaching courses and
using the possibility of a large NSF award to ensure these changes. The complainant
also alleged that the subject was proposing to pay students to participate in an
undergraduate research seminar series.

 In agreement with OIG, the program manager assessed the problems in a site visit
 conducted in connection with NSF considerations about whether to fund the proposal.
The site visit occurred shortly after OIG had been informed of the allegations. He
reported that the complainant's issues about changing the department's teaching
methods did not appear to be related to the NSF proposal. The subject's suggestion to
pay students for attending a seminar series had its roots in a misreading of the NSF
solicitation. Since no funds had been expended (the proposal had not been funded),
the program officer was able to resolve the misunderstanding.

We considered the complainant's allegations to be primarily management issues that
were satisfactorily resolved during the site visit. The complainant expressed
satisfaction that any additional problems could be brought to NSF's attention and
would be addressed in a timely way. We closed our inquiry and will take no further
action in this case.

Cc:   Integrity, IG




          f a c u l t y member in the Department of l           t the University of

             p     *;
             15-yearrequest for funds to support a mathematics training program.
